APPENDIX

1a
APPENDIX A
NUMBER 176,627
Sec. 3
1st JUDICIAL DISTRICT COURT
CADDO PARISH, LOUISIANA
BOBBY LEE HAMPTON
VERSUS
DARREL VANNOY, WARDEN
[STAMP: FILED FEB 03 2020]
RULING
Before the Court is “Petitioner’s Successive Application for Post-Conviction Relief Based on McCoy v. Louisiana” (“the Application”) filed May 14, 2019. For the
reasons expressed below, the Application is DENIED.
In the Application, BOBBY LEE HAMPTON
(“HAMPTON”) seeks a new trial based upon a recent
ruling by the United States Supreme Court in McCoy v.
Louisiana, 138 S.Ct. 1500, 200 L.Ed.2d 821 (2018)
(“McCoy”). McCoy held that a lawyer may not admit his
client’s guilt over the client’s intransigent objection to
that admission. If HAMPTON were on trial today,
McCoy would appear to require this Court to allow him
to override his counsel’s advice and insist upon claiming
innocence, even in the face of overwhelming evidence
against him.1 However, HAMPTON is not faced with
1

For purposes of this Ruling only, this Court assumes that
HAMPTON made such an objection in 1997. With this under-

2a
such a decision now, but was faced with that decision in
1997. The only question to be decided in the Application
is whether or not McCoy is to be applied retroactively.
Typical new rules of criminal procedure are not
retroactively applied. There are only two (2) types of
new procedural rules that are said to be exceptions to
this general rule. These two exceptions were established in Teague v. Lane, 489 U.S. 288, 109 S.Ct.
1060,103 L.Ed.2d 334 (1989) (“Teague”). They are: (1)
rules forbidding punishment of certain primary conduct
or prohibiting a certain category of punishment for a
class of defendants because of their status or offense;
(2) watershed rules of criminal procedure implicating
the fundamental fairness and accuracy of the criminal
proceeding. HAMPTON claims the rule of criminal
procedure set forth in McCoy is such a watershed rule
that it should be applied retroactively to his 1997 murder conviction. McCoy held that criminal defendants
have the right to choose the objective(s) of their defense. Specifically, McCoy held a defendant, and not
counsel, has the right in capital cases to decide whether
to admit guilt in the hope of gaining mercy at the sentencing stage or to maintain his innocence.
In its Procedural objections, the State argues
HAMPTON is wrong and rules such as that set forth in
McCoy in 2018 cannot reach back to set aside a 1997
conviction pursuant to Teague. This Court agrees.
The rule of McCoy simply does not fit either
Teague exception. First, it is not a rule that prohibits
punishment for certain conduct or punishment for a
category or class of defendants. Such as was present in
Montgomery v. Louisiana, 193 L.Ed. 2d 599, 136 S.Ct.
standing, no evidentiary hearing is needed on the Application at
this time.

3a
718 (2016) (“Montgomery”).2 Second, it is not a rule
that implicates the fundamental fairness or accuracy of
the criminal proceeding such as the right to counsel
found in Gideon v. Wainwright, 272 U.S. 355, 83 S.Ct.
792, 9 L.Ed. 2d 799 (1963) (“Gideon”).
The first Teague exception was clearly and rightly
applied in Montgomery, but cannot be said to apply
here. Hampton argues otherwise, but all juvenile offenders is a clearly defined class of offenders based on
age. Defendants who claim their innocence against advice of counsel is not such a clearly defined class. The
first Teague exception is limited to cases involving a
class of defendants like in Montgomery or those being
punished for conduct no longer punishable. HAMPTON is neither.
The second Teague exception does not apply here,
either. The second exception is limited in scope to:
“ ... a small core of rules requiring observance
of those procedures that ... are implicit in the
concept of ordered liberty.” O’Dell, supra, at
157, 117 S.Ct. 1969 (quoting Graham, supra, at
478, 113 S.Ct.892). And, because any qualifying
rule “ ‘would be so central to an accurate determination of innocence or guilt [that it is] unlikely that many such components of basic due
process have yet to emerge.’” Graham, supra,
at 478, 113 S.Ct. 892 (quoting Teague, supra at
313, 109 S.Ct. 1060), it should come as no surprise that we have yet to find a new rule that
falls under the second Teague exception.
2

Montgomery made the holding of Miller v. Alabama, 567
U.S. 460 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012), eliminating life
without parole for most juvenile offenders, retroactive pursuant to
the analysis of Teague.

4a
Perhaps for this reason, respondent does not
even attempt to argue that Mills qualifies or to
rebut petitioner’s argument that it does not,
Brief for Petitioners 23-26.
In providing guidance as to what might fall
within this exception, we have repeatedly
referred to the rule of Gideon v. Wainwright, 272 U.S. 355, 83 S.Ct. 792, 9
L.Ed.2d 799 (1963) (right to counsel), and
only to this rule. (Emphasis added.)
See Beard v. Banks, 124 S.Ct. 2504, 159 L.Ed.2d 494,
542 U.S. 406 (2004) at p. 2513 (“Beard v. Banks”).
Surely, the right of a defendant to overrule his
counsel on trial strategy cannot be equated to his basic
right to counsel. As stated in Graham v. Collins, 506
U.S. 461, 122 L.Ed.2d 260 (1993) at p. 478 and quoted in
Beard v. Banks, rules worthy of retroactive effect pursuant to this second exception must be “... central to
an accurate determination of innocence or guilt
...”. (Emphasis added.) Having a lawyer clearly can be
central to a determination of guilt or innocence, but it is
highly doubtful allowing a defendant to make such a
critical decision over advice of counsel would have that
effect. McCoy’s new rule is not likely to lead to a more
accurate determination of guilt or innocence.3 In Beard
v. Banks, at page 2514, the Supreme Court correctly
said it is fair to say Gideon... “alter(ed) our understanding of the ‘bedrock procedural elements’ essential to the
fairness of a proceeding.” (Emphaiss added.) No doubt
Gideon did so. McCoy cannot be said to have altered
3

Surely, Gideon has lead to many not guilty verdicts and verdicts more favorable to defendants. This Court is concerned
McCoy might lead to less favorable verdicts for more defendants.

5a
our understanding of the bedrock procedural elements
essential to the fairness of a proceeding.4
The Clerk is directed to provide a copy of this
Ruling to Bobby Lee Hampton, through his attorney
of record, Letty S. DiGiulio, and to the Caddo Parish
District Attorney.
Shreveport, Caddo Parish, Louisiana this
of January, 2020.

28

day

/s/ Charles G. Tutt
JUDGE CHARLES G. TUTT
DISTRICT JUDGE

DISTRIBUTION:
Bobby Lee Hampton
through attorney of record,
Letty S. DiGiulio
K&B Plaza
1055 S. Charles Avenue, Suite 208
New Orleans, LA 70130
Suzanne M. Williams
Caddo Parish District Attorney’s Office
501 Texas Street, 5th Floor
Shreveport, LA 71101
[STAMP: ENDORSED FILED FEB 03 2020]
4

As mentioned in footnote 1, no hearing is needed. This Ruling is issued pursuant to La. C.Cr.P. Art. 928 as the Application
“… fails to allege a claim which, if established, would entitle the
petitioner to relief.” The Application is thorough. It is well documented and well done, but neither HAMPTON nor counsel can
convince this Court to equate the ruling in McCoy to those in
Montgomery or Gideon. HAMPTON cannot convince this Court
otherwise with more argument. Further proceedings in this Court
are unnecessary. Alternatively, the State’s Procedural Objections
can be treated as an Answer and this Ruling issued pursuant to
La.Cr.P. Art. 929A.

7a
APPENDIX B
THE SUPREME COURT OF THE STATE OF LOUISIANA
No.2020-KD-00390
BOBBY LEE HAMPTON
VS.
DARREL VANNOY, WARDEN
IN RE: Bobby Lee Hampton – Applicant Plaintiff;
Applying For Supervisory Writ, Parish of Caddo,
1st Judicial District Court Number(s) 176,627;
December 08, 2020
Writ application denied.
JDH
JTG
WJC
JHB
Johnson, C.J., would grant and docket.
Weimer, J., would grant and docket.
Crichton, J., would grant and docket and assigns reasons.
Supreme Court of Louisiana
December 08, 2020
[illegible]
Clerk of Court
For the Court

9a
APPENDIX C
SUPREME COURT OF LOUISIANA
No. 2020-KD-00390
BOBBY LEE HAMPTON
VS.
DARREL VANNOY, WARDEN
[December 8, 2020]
On Supervisory Writ to the
1st Judicial District Court, Parish of Caddo

Crichton, J., would grant and docket.
I would grant and docket this application for full
consideration by this Court in order to address the retroactivity of McCoy v. Louisiana, 584 U.S. __, 138 S.Ct.
1500, 200 L.Ed.2d. 821 (2018). See Teague v. Lane, 489
U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d 334 (1988).

